                  U.S. Department of Agriculture

                     Office of Inspector General
                      Financial & IT Operations




        Audit Report

Purchase Card Management System
   Controls Need Strengthening




                        Report No. 11099-44-FM
                                   August 2005
                        UNITED STATES DEPARTMENT OF AGRICULTURE

                                   OFFICE OF INSPECTOR GENERAL


                                        Washington D.C. 20250


September 2, 2005



REPLY TO
ATTN OF:      11099-44-FM

TO:           Russ Ashworth
              Chief
              Office of Procurement and Policy Management

              Patricia E. Healy
              Acting Chief Financial Officer
              Office of the Chief Financial Officer

THROUGH: Arthur Goldman
         Audit Liaison Officer
         Departmental Administration

              Kathy Donaldson
              Audit Liaison Officer
              Office of the Chief Financial Officer

FROM:         Robert W. Young             /s/
              Assistant Inspector General
               for Audit

SUBJECT:      Purchase Card Management System Controls Need Strengthening


This report presents the results of our audit of controls over the Purchase Card Management
System (PCMS). The Chief, Office of Procurement and Policy Management (OPPM) and Office
of the Chief Financial Officer’s response to the official draft, received on July 22, 2005, is
included in its entirety as exhibit A. The Office of Inspector General’s position is incorporated
into the findings and recommendations section of the report.

Based on the information contained in the response, we concur with management decision on
Recommendations 2 and 3 of the report. Although management’s comments concerning the
remaining recommendations, with the exception of Recommendations 1 and 4, adequately
address required corrective action, management did not provide specific dates to complete
planned actions. Management’s comments to Recommendation 1 were not adequate because
OPPM did not agree that it is its responsibility to ensure internal controls are in place and
operating effectively.
Russ Ashworth et al.                                                                       2


In accordance with Departmental Regulation 1720-1, please furnish a reply within 60 days
describing the corrective action taken or planned, including applicable timeframes, on our
recommendations. Please note that the regulations require a management decision to be reached
on all findings and recommendations within a maximum of 6 months from report issuance.

We appreciate the courtesies and cooperation extended to us during the audit.
Executive Summary
Purchase Card Management System Controls Need Strengthening

Results in Brief   Generally, we found that the transactions reviewed were proper and that the
                   program met its intent of providing a cost beneficial process for procuring
                   goods and services within the Department. However certain program
                   controls could be strengthened to identify improper payments and potentially
                   fraudulent activities. Specifically, we found that some cardholders failed to
                   reconcile their transactions in the Purchase Card Management System
                   (PCMS), the alert system could be made more effective, and policies
                   governing supervisory oversight needed strengthening. These weaknesses
                   occurred because there were limited controls in place to ensure that
                   cardholders reconciled their purchases, oversight personnel indicated that
                   they were overwhelmed by excessive messages in the alert system, and
                   limited controls existed within the system to ensure that supervisors reviewed
                   the appropriateness of cardholder purchases. As a result, potential improper
                   transactions may not be detected, and agencies are at an increased risk of
                   monetary losses resulting from undetected fraudulent, wasteful, or abusive
                   purchase card transactions.

                   The Office of the Chief Financial Officer (OCFO) and the Office of
                   Procurement and Property Management (OPPM) could implement additional
                   controls to ensure the integrity and security of the PCMS system and improve
                   its reliability and effectiveness in preventing potential improper payments.
                   We found (1) users with unrestricted and unmonitored administrative access
                   to the PCMS database, (2) password settings did not conform with Federal
                   requirements, (3) budget object classification codes (BOCC) were not
                   verified, (4) transactions posted to cancelled cards, (5) incorrect or missing
                   cardholder data, and (6) unverified lender rebates. OCFO was aware that
                   many of these weaknesses existed; however, it had not implemented
                   corrective actions due to other priorities. As a result, the PCMS is at greater
                   risk of unauthorized access and improper purchases. Further, the Department
                   may not be receiving the appropriate rebate from the lender in accordance
                   with its contract. Specifically:

                       •   We found that 14 users had unrestricted and unmonitored database
                           administrator privileges to PCMS data, access to PCMS was not
                           documented, passwords were not encrypted, and password settings
                           were not configured in accordance with departmental and Federal
                           guidelines. In addition, the PCMS application did not force users to
                           change their initial password.

                       •   PCMS did not enter the appropriate BOCC.


USDA/OIG-11099-44-FM                                                                       Page i
                       •   There was no internal control to prevent a cardholder (whether a
                           current or separated employee) from making charges on an account
                           after the account had been cancelled.

                       •   Purchase cards were not cancelled in a timely manner after the
                           cardholder separated from the agency. OCFO removed separated
                           employees’ access to the PCMS application on a monthly basis, but
                           no prescribed controls existed to ensure that those employees’
                           purchase cards were cancelled.

                       •   We identified 126 cardholders whose social security numbers (SSN)
                           in PCMS were invalid or associated with an incorrect individual.

                       •   The Department earns a rebate from the lender based on the volume
                           of purchase card transactions and payments made. In fiscal year
                           2003, the lender paid the Department over $4.4 million in rebates
                           related to purchase card transactions. We found that OCFO ensured
                           that the rebate planned by the lender was actually received, but it had
                           not independently verified that the lender calculated the rebate
                           accurately.

Recommendations
In Brief           We recommended the following to strengthen internal controls and to prevent
                   and detect improper payments made under the Purchase Card Program:

                       •   OPPM should establish controls to enforce its policies to (1) address
                           alert messages within 30 days of receipt and (2) reconcile and review
                           purchase card transactions on a monthly basis.

                       •   OPPM in coordination with OCFO should modify PCMS to (1)
                           automatically suspend purchase cards that have unreconciled
                           transactions greater than 60 days and (2) prohibit cardholders from
                           modifying alert messages for potentially suspicious transactions.

                       •   OCFO should validate whether database administrator access is
                           needed for all 14 users we identified to perform their job functions.
                           Remove or restrict access as needed and establish procedures and
                           controls limiting future designation.

                       •   OCFO should modify PCMS and the Security Access Management
                           System (SAMS), as appropriate, to ensure that user password controls
                           conform to departmental and Federal guidelines.




USDA/OIG-11099-44-FM                                                                       Page ii
                       •   OPPM in coordination with OCFO should establish controls to
                           require users to validate the accuracy of the BOCC for each
                           transaction.

                       •   OPPM in coordination with OCFO should modify the PCMS to (1)
                           reject transactions from the lender associated with cards that have
                           been cancelled, (2) establish an edit to check the validity of
                           cardholder’s SSN, (3) direct the lender to cancel a card at the same
                           time that PCMS drops a cardholder’s system access, and (4)
                           independently calculate and verify that the appropriate rebate was
                           received.

Agency Response    OCFO and OPPM generally agreed with the findings and recommendations,
                   except for Recommendations 1 and 4. With respect to Recommendation 1,
                   OPPM did not agree that it shared responsibility with the user agencies to
                   implement adequate effective internal controls to enforce policies to (1)
                   reconcile transactions and address alert messages in a timely manner and (2)
                   review transactions on a monthly basis. With respect to Recommendation 4,
                   management indicated that Oracle does not store pass words in clear text.

OIG Position       We continue to believe that OPPM shares responsibility with user agencies
                   to help ensure internal controls are in place and operating effectively. The
                   lack of effective internal controls within PCMS is evidenced by over 1,400
                   cardholders not reconciling approximately 6,700 transactions totaling over
                   $3.4 million, within 30 days.

                   We agree that Oracle encrypts passwords; however, PCMS passwords are
                   stored in clear text in SAMS which is an IBM system used to access the
                   Oracle based PCMS.




USDA/OIG-11099-44-FM                                                                   Page iii
Abbreviations Used in This Report


ACFO-FS             Associate Chief Financial Officer-Financial Systems
APC                 Agency Program Coordinator
BOCC                Budget Object Classification Code
CCB                 Change Control Board
DR                  Departmental Regulation
IRMD                Information Resources Management Division
ISSO                Information System Security Office
LAPC                Local Agency Program Coordinator
NFC                 National Finance Center
NIST                National Institute of Standards and Technology
OCFO                Office of the Chief Financial Officer
OIG                 Office of Inspector General
OMB                 Office of Management and Budget
OPPM                Office of Procurement and Property Management
PCMS                Purchase Card Management System
SSN                 Social Security Number
USDA                U.S. Department of Agriculture




USDA/OIG-11099-44-FM                                                      Page iv
Table of Contents

Executive Summary .................................................................................................................................i

Abbreviations Used in This Report ......................................................................................................iv

Background and Objectives ................................................................................................................... 1

Findings and Recommendations............................................................................................................ 3

    Section 1. Purchase Card Program Oversight ................................................................................ 3

         Finding 1             Additional Oversight Could Improve Purchase Card Program Effectiveness ........ 3
                                  Recommendation No. 1.................................................................................... 5
                                  Recommendation No. 2.................................................................................... 6

    Section 2. Purchase Card Management System Controls .............................................................. 7

         Finding 2             Purchase Card Management System Controls Need Strengthening ....................... 7
                                   Recommendation No. 3.................................................................................. 10
                                   Recommendation No. 4.................................................................................. 11
                                   Recommendation No. 5.................................................................................. 11
                                   Recommendation No. 6.................................................................................. 12

Scope and Methodology........................................................................................................................ 14

Exhibit A ................................................................................................................................................ 15




USDA/OIG-11099-44-FM                                                                                                                              Page v
Background and Objectives
Background                           The U.S. Department of Agriculture’s (USDA) Purchase Card Program is
                                     part of a Government-wide initiative to streamline the Federal agency
                                     acquisition processes. The program provides agencies with a low-cost and
                                     efficient vehicle to make small purchases of $2,500 or less directly from
                                     vendors. Agencies and vendors benefit from the program through lower
                                     processing costs and reduced complexity from traditional procurement
                                     methods. In fiscal year 2003, USDA agencies made over $570 million in
                                     purchases using the Purchase Card Program.

                                     The Purchase Card Program uses a VISA credit card issued by a commercial
                                     lender, similar to a personal credit card. Purchase cards are marked with the
                                     United States of America seal and the words “For Official U.S. Government
                                     Purchases Only” to distinguish them from a personal credit card. Also, some
                                     cardholders are issued convenience checks tied to the credit account that can
                                     be used for purchases from merchants that do not accept credit cards. 1

                                     The Purchase Card Management System (PCMS) is an automated
                                     reconciliation and payment system that assists the users and management in
                                     monitoring expenses. PCMS is a Windows-based system used to track,
                                     reconcile, and control purchases made with purchase cards. On a daily basis,
                                     the lender downloads purchase card transaction data and purchase card
                                     master data to the Office of the Chief Financial Officer (OCFO). OCFO
                                     makes payments to the lender for purchases billed according to a scheduled
                                     billing cycle.

                                     The Office of Procurement and Property Management (OPPM) has overall
                                     responsibility for managing the USDA Purchase Card Program and
                                     overseeing the development and maintenance of PCMS. Each agency within
                                     USDA has an Agency Program Coordinator (APC) who is responsible for the
                                     overall program in that agency, and acts as the agency’s contact with OPPM
                                     and the lender. For geographically dispersed agencies, Local Agency
                                     Program Coordinators (LAPC) are responsible for the day-to-day operations
                                     of the Purchase Card Program in their designated area. The LAPC is
                                     appointed by the head of the contracting office, subject to the concurrence of
                                     the APC. Agency APC and LAPC responsibilities include cardholder
                                     training, purchase card record maintenance, oversight of purchase card
                                     transactions, and cancellation or activation of cardholder accounts. Agency
                                     management determines who in their organizations should receive purchase
                                     cards and convenience checks and recommends the monthly purchase limits.


1
  As of July 1, 2003, the use of convenience checks was limited in an effort to minimize misuse. Agencies are still permitted to use convenience checks in
certain situations.
USDA/OIG-11099-44-FM                                                                                                                           Page 1
                   Ultimately, cardholders and their supervisors remain responsible for
                   reviewing purchases to ensure that they are necessary and proper.

Objectives         Our audit objective was to determine if improper purchases were being made
                   using Government purchase cards or convenience checks. Also, we
                   evaluated controls within PCMS to detect and prevent monetary losses from
                   fraudulent, wasteful, or abusive purchase card transactions.




USDA/OIG-11099-44-FM                                                                  Page 2
Findings and Recommendations
Section 1. Purchase Card Program Oversight



Finding 1                        Additional Oversight Could Improve Purchase Card Program
                                 Effectiveness

                                 Generally, we found that the transactions reviewed were proper and that the
                                 program met its intent of providing a cost beneficial process for procuring
                                 goods and services within the Department. However certain program
                                 controls could be strengthened to identify improper payments and potentially
                                 fraudulent activities. Specifically, we found that some cardholders failed to
                                 reconcile their transactions in PCMS, the alert system could be made more
                                 effective, and policies governing supervisory oversight needed strengthening.
                                 These weaknesses occurred because there were limited controls in place to
                                 ensure that cardholders reconciled their purchases, the alert system
                                 overwhelmed oversight personnel with excessive messages, and limited
                                 controls existed within the system to ensure that supervisors reviewed the
                                 appropriateness of cardholder purchases. As a result, potential improper
                                 transactions may not be detected, and agencies are at an increased risk of
                                 monetary losses resulting from undetected fraudulent, wasteful, or abusive
                                 purchase card transactions.

                                 Unreconciled Transactions

                                 We noted that over 1,400 cardholders had not reconciled approximately
                                 6,700 transactions totaling over $3.4 million within 30 days as required by
                                 departmental regulations (DR). We also noted agency managers had not
                                 suspended (deactivated) 685 cardholders’ accounts after they had not
                                 reconciled over 3,000 transactions totaling about $750,000 within the 60-day
                                 time limit. 2 This occurred because agency managers did not take action to
                                 monitor or restrict the purchasing activity of cardholders who failed to timely
                                 reconcile their transactions. As a result, fraudulent or improper transactions
                                 may go undetected and not disputed through the lender. Furthermore, the
                                 cardholder’s agency may have no recourse in resolving fraudulent or
                                 improper transactions.

                                 DR 5013-6 states that cardholders shall reconcile their accounts no longer
                                 than 30 days after a transaction appears in PCMS, absent extenuating
2
  DR 5013-6, “Use of the Purchase Card and Convenience Check,” dated February 13, 2003, requires cardholders to reconcile their
accounts no longer than 30 days after a transaction appears in PCMS, absent extenuating circumstances. Further, program coordinators
shall deactivate the account of any cardholder who fails to reconcile transactions within 60 days after each transaction appears in PCMS.
Furthermore, transactions cannot be disputed after 60 days.
USDA/OIG-11099-44-FM                                                                                                            Page 3
                                     circumstances. Further, program coordinators shall deactivate the account of
                                     any cardholder who fails to reconcile transactions within 60 days after each
                                     transaction appears in PCMS.

                                     The PCMS Cardholder Responsibilities Guide requires that the cardholder
                                     contact the merchant to resolve any dispute before processing it through
                                     PCMS. If the dispute cannot be resolved with the merchant, the cardholder
                                     must mark the transaction as a disputed transaction in PCMS and fax the
                                     lender notice that the transaction is in dispute. The cardholder has 60 days
                                     from the date of a transaction to file a dispute with the lender. After the
                                     60-day time limit, the lender is not obligated to accept any disputes of
                                     questioned transactions. Further, the guide requires the cardholder to
                                     reconcile transactions at least once a month in PCMS using documentation
                                     retained from each purchase. Cardholders who frequently use their purchase
                                     cards should increase the frequency of reconciliation in order to keep
                                     reconciliation sessions brief and to assist agency management and finance
                                     officials in monitoring the status of funds.

                                     Alert Message System Could be Improved

                                     PCMS automatically creates alert messages when a purchase meets certain
                                     criteria such as suspicious merchant category codes (e.g., pawn shops, liquor
                                     stores, jewelry stores, camera stores, etc.), potential split transactions,
                                     unreconciled transactions after 30 days, and transactions on closed accounts.
                                     However, because of the volume of alert messages, agency oversight
                                     personnel have not been vigilant in monitoring those alerts. Agency
                                     coordinators cited difficulty in using the system and excessive workload as
                                     reasons for not keeping current in reading and acting on alert messages.

                                     We also found that all alert messages are sent to the responsible purchase
                                     cardholder, LAPC, and APC rather than to specific individuals identified in
                                     the system requirements document. PCMS requirements documentation
                                     requires that alerts for suspicious transactions should go to LAPCs and not to
                                     responsible purchase cardholders. OPPM could not provide a reasonable
                                     answer as to why the alert message system within PCMS did not match the
                                     system’s requirements. The current distribution of alert messages diminishes
                                     the effectiveness of the internal control because cardholders are alerted when
                                     the system identifies certain transactions intended for review by agency
                                     oversight personnel. For example, an alert that a purchase was made from a
                                     vendor with a suspicious merchant category code could be seen by the
                                     cardholder that perpetrated the improper purchase. The cardholder could
                                     conceal an improper payment by marking the alert message as “read.”3


3
  Because of the volume of alert messages received, oversight personnel generally ignore messages marked as “read” assuming that appropriate action had
been taken.
USDA/OIG-11099-44-FM                                                                                                                         Page 4
                   Lack of Supervisory Review of Transactions

                   OPPM established a policy that cardholders’ supervisors should review their
                   employees’ purchase card transactions on a quarterly basis. However, we
                   noted that this policy was not enforced at the four agencies we reviewed to
                   assure that these reviews were actually being completed. In addition, while
                   one agency implemented a supervisory review requirement of this process, it
                   was ineffective. The LAPC at that agency sent monthly reports of cardholder
                   transactions to the supervisors; however, no documentation was ever returned
                   to the LAPC from the supervisor to assure that the review was actually
                   completed. The other three agencies did not send a list of transactions to
                   cardholder supervisors, and the personnel had no means to assure that
                   supervisors had actually reviewed purchase card transactions. More
                   improper purchases could be detected or deterred if a formal supervisory
                   program was established to review transactions on a monthly rather than
                   quarterly basis. This would allow the agency to timely dispute charges with
                   the lender within the 60-day timeframe.

Recommendation No. 1

                   OPPM should establish controls to enforce its policies to (1) reconcile
                   transactions and address alert messages within 30 days of receipt and (2)
                   review purchase card transactions on a monthly basis.

Agency Response.   OPPM did not concur. It stated that the recommendation is misdirected.
                   The Office of Inspector General (OIG) should direct this recommendation to
                   the heads of agencies whose purchase card programs were reviewed during
                   the audit. OPPM has taken a number of actions to improve the performance
                   of APCs and LAPCs over the years, including the promulgation of an
                   internal control blueprint in 2003. OPPM will continue to encourage
                   agencies to improve reconciliations rates and to address alert messages.
                   However, agencies also must be responsible for deficiencies in their
                   purchase card programs. APCs and LAPCs work for their own agencies;
                   they are not OPPM employees. OPPM does not propose to take the
                   corrective action recommended.

OIG Position.      We continue to believe that OPPM shares responsibility with user agencies
                   to help ensure internal controls are in place and operating effectively. The
                   lack of effective internal controls within PCMS is evidenced by over 1,400
                   cardholders not reconciling approximately 6,700 transactions totaling over
                   $3.4 million, within 30 days.

                   OPPM should analyze potential systemic controls that could be implemented
                   within the PCMS application that would prompt compliance by agency

USDA/OIG-11099-44-FM                                                                    Page 5
                   cardholders that habitually do not reconcile and review transactions in a
                   timely manner (e.g., suspend and/or cancel the account).

Recommendation No. 2

                   OPPM in coordination with OCFO should modify PCMS to (1) automatically
                   suspend purchase cards that have unreconciled transactions greater than 60
                   days and (2) prohibit cardholders from modifying alert messages for
                   potentially suspicious transactions.

Agency Response.   OPPM concurred with both parts of the recommendation. (1) The
                   Procurement Policy Division prepared a change request to automatically
                   suspend purchase cards that have unreconciled transactions greater than 60
                   days. A change request modification document was created and submitted
                   to OCFO Change Control Board (CCB) to address the recommendation.
                   The change request is currently under review and analysis to determine the
                   appropriate corrective action to satisfy the specific recommendation. The
                   requested modification will be implemented in 2006. (2) The change request
                   to prohibit cardholders from modifying alert messages for potentially
                   suspicious transactions was included in PCMS Release 5.1, implemented in
                   March 2005.

OIG Position.      We concur with the management decision.




USDA/OIG-11099-44-FM                                                                  Page 6
Section 2. Purchase Card Management System Controls



Finding 2                             Purchase    Card                   Management                 System              Controls   Need
                                      Strengthening

                                      OCFO and OPPM should implement additional controls to ensure the
                                      integrity and security of the PCMS system and improve its reliability and
                                      effectiveness in preventing potential improper payments. We found (1) users
                                      with unrestricted and unmonitored administrative access to the PCMS
                                      database, (2) password settings did not conform with Federal requirements,
                                      (3) budget object classification codes were not verified, (4) transactions
                                      posted to cancelled cards, (5) incorrect or missing cardholder data, and (6)
                                      unverified lender rebates. OCFO was aware that many of these weaknesses
                                      existed; however, it had not implemented corrective actions due to other
                                      priorities. As a result, the PCMS system is at greater risk of unauthorized
                                      access and improper purchases. Further, the Department may not be
                                      receiving the appropriate rebate from the lender in accordance with its
                                      contract. Details follow.

                                      Access Controls to PCMS Data

                                      We found that 14 users had unrestricted and unmonitored database
                                      administrator privileges to PCMS data, access to PCMS was not documented,
                                      passwords were not encrypted, and password settings were not configured in
                                      accordance with departmental and Federal guidelines. As a result, PCMS
                                      data is at risk of compromise from unauthorized access.

                                      OMB established a minimum set of controls for agencies’ automated
                                      information security programs. 4 Agencies are required to establish controls
                                      to assure adequate security for all information processed, transmitted, or
                                      stored. The National Institute of Standards and Technology (NIST) further
                                      specifies management, operational, and technical controls. 5 It illustrates the
                                      benefits of security controls and the major techniques or approaches for each
                                      control. Both NIST and OMB advocate implementation of the “least
                                      privilege” concept, granting users only the access required to perform their
                                      duties.

                                      We identified 14 users from several divisions of OCFO/National Finance
                                      Center (NFC) that had database administrative authority over PCMS data that

4
    OMB Circular A-130, Appendix III, “Security of Federal Automated Information Resources,” dated November 28, 2000.
5
    NIST Special Publication 800-12, “An Introduction to Computer Security: The NIST Handbook,” dated October 1995.
USDA/OIG-11099-44-FM                                                                                                               Page 7
                                    was not restricted to the authority needed to perform their duties as required
                                    by NIST Special Publication 800-14, “Generally Accepted Principles and
                                    Practices for Securing Information Technology Systems.” Administrative
                                    authority is the highest level of access to a database and allows those users to
                                    add, modify, or delete data. For example, we identified three users from the
                                    security staff that establish new user accounts. Instead of limiting their
                                    authority to only establish user identifications, they were given full
                                    administrative authority to the full PCMS database. In addition, there was no
                                    tracking system to identify the activity processed by these users. Therefore,
                                    we were unable to determine whether inappropriate actions had occurred.

                                    We also found that users’ passwords were stored in clear text and not
                                    encrypted in the Security Access Management, contrary to NIST Special
                                    Publication 800-14. 6 In addition, the PCMS application did not force users to
                                    change their initial password as required by Department Manual 3140-001,
                                    “Management ADP Security Manual.” OCFO was aware of these password
                                    control weaknesses but could not explain why the system had been designed
                                    with these weaknesses, or when they would be corrected.

                                    Budget Object Classification Code

                                    PCMS does not contain a provision to allow for the appropriate budget object
                                    classification code (BOCC) to be entered. This code is critical within the
                                    Department’s accounting applications to ensure that tax forms required by the
                                    Internal Revenue Service are properly prepared and sent to vendors. PCMS
                                    was designed to enter a default BOCC regardless of the type of purchase.
                                    Cardholders are subsequently responsible for changing it, if necessary.
                                    OCFO was aware of the problem and has requested a change through its
                                    application change control board; however, at the time of our review, the
                                    change had not been approved.

                                    Charges Occurred on Cancelled Cards

                                    There was no internal control to prevent a cardholder (whether a current or
                                    separated employee) from making charges on an account after the account
                                    had been cancelled. PCMS does not perform an edit check to determine if a
                                    transaction transferred from the lender is associated with a deactivated card.
                                    The lender stated that it is standard industry practice to honor certain
                                    recurring charges despite the card being cancelled. The lender also stated
                                    that it is the cardholder’s or APC’s responsibility to make alternate financial
                                    arrangements for recurring transactions associated with a cancelled card.



6
    SAMS is an IBM system used to access PCMS.
USDA/OIG-11099-44-FM                                                                                         Page 8
                   Cards Not Cancelled After Cardholder Separated

                   Purchase cards were not cancelled in a timely manner after the cardholder
                   separated from the agency. OCFO/NFC removed separated employees’
                   access to the PCMS application on a monthly basis, but no prescribed
                   controls were in place to ensure that those employees’ purchase cards were
                   cancelled. As a result, ex-employees could potentially continue to make
                   purchases on the credit card.

                   OCFO/NFC systems security staff informed us that they run a report once a
                   month that compares the social security numbers (SSN) of purchase
                   cardholders with the Department’s employee database. The security staff
                   uses this report to identify PCMS users who had left the Department and no
                   longer needed access to PCMS. However, the security staff does not cancel
                   the purchase card, rather, per DR 5013-6, LAPC’s are required to cancel
                   cards. We found that no control provision had been set forth to assure this
                   action is taken in a timely manner. PCMS could be modified to direct the
                   lender to cancel a card at the same time OCFO/NFC cancels the PCMS
                   system access.

                   Invalid Social Security Numbers

                   We identified 126 cardholders whose SSNs in PCMS were invalid or
                   associated with an incorrect individual. This occurred because PCMS was
                   not programmed with a routine to ensure that only valid SSNs were entered
                   into the system for each cardholder. As a result, there is an increased risk
                   that unauthorized personnel may obtain and use purchase cards.

                   We also performed a comparison of SSNs between PCMS and the
                   Department’s personnel system to determine whether all cardholders were
                   current employees of USDA. Our analysis for the four agencies identified
                   SSNs that were in PCMS but not in the personnel system. This occurred
                   because the PCMS cardholder table was not validated against the
                   Department’s personnel database. Ultimately, we were able to find the
                   correct SSNs by performing a name and agency search on the personnel
                   database.

                   The PCMS lead developer informed us that a change request was approved to
                   have every SSN in the PCMS cardholder table validated against the
                   Department’s personnel database. Further, newly established purchase card
                   users would have to be validated against the Department’s personnel database
                   before a card would be issued.

USDA/OIG-11099-44-FM                                                                    Page 9
                   Lack of Rebate Calculation

                   The Department earns a rebate from the lender based on the volume of
                   purchase card transactions and payments made. In fiscal year 2003, the
                   lender paid the Department over $4.4 million in rebates related to purchase
                   card transactions. We found that OCFO ensured that the rebate planned by
                   the lender was actually received, but it had not independently verified that the
                   lender calculated the rebate accurately. At one time, PCMS lacked sufficient
                   data to determine the payments; therefore, an independent calculation of the
                   estimated rebate was not possible. However, the current version of PCMS
                   now contains the necessary fields to validate the rebate estimate. To ensure
                   the Department receives its rightful rebate, PCMS should be updated to
                   calculate and verify that the appropriate rebate was received from the lender.

Recommendation No. 3

                   OCFO should validate whether full database administrator access is needed
                   for all 14 users we identified to perform their job functions. Remove or
                   restrict access as needed and establish procedures and controls limiting
                   future designation.

Agency Response.   OCFO/National Finance Center’s, Information Resources Management
                   Division (IRMD) performed an analysis and review of the 14 users
                   identified in the audit having database administrative authority over PCMS
                   data. The goal to validate needed database authority over PCMS data
                   resulted in the establishment of access to only those employees who require
                   the access to perform their regular duties. Of the 14 users identified, actions
                   were taken to remove access for a duplicate user identification as requested
                   by the Data Base Management Branch, NFC, and three were reclassified into
                   unique roles for Security Administration limiting their authority to establish
                   and update. The access of the remaining nine users was required in order to
                   perform their regular job duties.

                   The OCFO/NFC’s Information System Security Office (ISSO) is currently
                   designing and implementing reports using a new logging tool implemented
                   to log and monitor all Web and Unix servers attached to the NFC network.
                   Currently, daily Oracle reports are generated listing users with Data Base
                   Administrator authority and the status (successful only) of approximately 18
                   Oracle commands. Additional reports are planned to include more activities
                   like administrator activity, violations, inactive accounts, etc.

                   NFC role owners and ISSO are working together to implement role-based
                   access and produce reports for management review of access and roles of
                   their staff. Role based access and monitoring has been established for
                   IRMD employees. Associate Chief Financial Officer-Financial Systems
USDA/OIG-11099-44-FM                                                                      Page 10
                   (ACFO-FS) and ISSO will work together to implement role based security
                   control monitoring for other OCFO employees by September 30, 2006.

                   Access privileges were reviewed, corrected and finalized in May 2005.
                   ISSO’s plan for role base security control monitoring and reporting on
                   implementation for ACFO-FS is scheduled for September 30, 2006.

OIG Position.      We concur with the management decision.

Recommendation No. 4

                   OCFO should modify the PCMS application and SAMS, as appropriate, to
                   ensure that user password controls conform to departmental and Federal
                   guidelines.

Agency Response.   The report states that user passwords are stored in clear text and
                   unencrypted. This is untrue. The PCMS database is built on Oracle. Oracle
                   password controls conform to departmental and Federal guidelines through
                   encryption with a one-way hash algorithm before they are stored in the
                   database. Other terms for this are message digest, digital signature, one-way
                   encryption, digital fingerprint, or cryptographic hash. Oracle uses a Data
                   Encryption Standard algorithm on passwords. What is stored is a hash or
                   digested value and it is NOT reversible. It appears to be a string of
                   hexadecimal characters and has a fixed length. If someone obtains this
                   string or digest, they are unable to determine the password.

                   The PCMS application did not force users to change their initial password as
                   required by Departmental Manual 3140-1. A change request is being created
                   that addresses the PCMS access/sign-on process that will force users to
                   change their initial password. Following the appropriate research and
                   analysis on the change request, implementation of the requirement will be
                   scheduled for release in FY 2006.

OIG Position.      We agree that Oracle does not store passwords in clear text or unencrypted.
                   However, PCMS passwords are stored in clear text in SAMS which is an
                   IBM system used to access the Oracle based PCMS. As such, SAMS should
                   be modified to encrypt passwords.

Recommendation No. 5

                   OPPM in coordination with OCFO should establish controls to require users
                   to validate the accuracy of the BOCC for each transaction.

Agency Response.   OPPM concurred in part. It indicated that there is no way to edit a BOCC
                   during reconciliation to ensure that the BOCC accurately describes the
USDA/OIG-11099-44-FM                                                                    Page 11
                   product or service purchased. A change request was approved by the CCB
                   and is currently under development. However, the statistical sampling
                   feature in the alert function already allows LAPCs to review data reported
                   for a transaction, including the BOCC reported by the cardholder. We
                   understand OIG’s concern about the present system’s autofilling a default
                   BOCC that the cardholder need not verify or change prior to
                   approving/reconciling a transaction. Autofilling the BOCC field is required
                   for system functionality. A change request to use a crosswalk between
                   merchant category code and BOCC has been approved by the CCB, and
                   work on development of the crosswalk has commenced. The crosswalk will
                   autofill the BOCC field with a BOCC corresponding to the merchant
                   category code reported by the bank. While this is not a total cure, it will
                   substantially increase the accuracy of BOCCs reported in PCMS. No release
                   date has been determined for this change.

                   OCFO and OPPM will include crosswalk functionality in the PCMS update,
                   to be released by December 31, 2006.

OIG Position.      We concur with the proposed corrective actions; however, the estimated
                   completion date of December 31, 2006 is beyond the 1 year timeframe
                   required by Departmental Regulation (DR) 1720-1. In order to achieve
                   management decision, please provide detailed, time phased interim
                   completion dates.

Recommendation No. 6

                   OPPM in coordination with OCFO should modify the PCMS to (1) reject
                   transactions from the lender associated with cards that have been cancelled,
                   (2) establish an edit to check the validity of cardholder’s SSN, (3) direct the
                   lender to cancel a card at the same time that PCMS drops a cardholder’s
                   system access, and (4) independently calculate and verify that the
                   appropriate rebate was received.

Agency Response.   OPPM’s position on each numbered part of Recommendation 6 is as
                   follows:

                       1. OPPM generally concurred that transactions against cancelled accounts
                          should be declined by the lender or disputed by USDA if not declined.
                          OPPM has an alert message in PCMS to notify LAPCs of transactions
                          posted against cancelled accounts. OPPM and OCFO are modifying
                          PCMS to automatically notify the bank when a cardholder separates
                          from USDA. However, a certain period of time after separation must
                          be allowed for trailing transactions; i.e., transactions made before a
                          cardholder separates, but not posted until after the cardholder leaves
                          USDA. Finally, the lender may not decline recurring transactions such
USDA/OIG-11099-44-FM                                                                     Page 12
                          as renewals of magazine subscriptions. Rules governing credit card
                          accounts stipulate that the subscriber must take some action to cancel
                          the account or transaction to be honored.

                       2. OPPM concurred. OPPM and OCFO are working on validation of
                          cardholder SSNs. The first phase will be review and validation of all
                          SSNs reported for current cardholders. The second phase will be to
                          install a SSN edit check for all new cardholder accounts. PCMS
                          version 6.1, to be released in 2006, will validate an employee’s SSN
                          against the employee database whenever an account is created or
                          modified.

                       3. OPPM concurred. OPPM and OCFO are modifying PCMS to notify
                          the bank automatically when a cardholder separates from USDA. A
                          change request approved for PCMS version 5.2, will automate a
                          cancellation request when a cardholder user identification is dropped
                          from PCMS.

                       4. OPPM concurred. An emergency change request was approved to
                          calculate the refunds independently for comparison against the actual
                          refund that is received from the lender. OPPM is discussing methods
                          of rebate verification with OCFO and requirements are being
                          developed.

                   OPPM anticipates that all modifications to PCMS will be completed by the
                   2006 release of PCMS version 6.2.

OIG Position.      We concur with the proposed corrective actions; however, the estimated
                   completion date of 2006 is not specific and must be within the 1 year
                   timeframe required by DR 1720-1. In order to achieve management
                   decision, a specific completion date must be provided and if the date is
                   beyond the 1 year requirement, please provide detailed, time phased interim
                   completion dates.




USDA/OIG-11099-44-FM                                                                    Page 13
Scope and Methodology
                   We performed our audit at the OCFO/NFC, located in New Orleans,
                   Louisiana and at OPPM, and agency offices in Washington D.C. We selected
                   transactions for the following four agencies based on the volume of activity:

                       •   The Animal and Plant Health Inspection Service,
                       •   Natural Resources Conservation Service,
                       •   Agricultural Research Service,
                       •   and the Food Safety and Inspection Service.

                   We conducted our review from December 2003 through September 2004.

                   To accomplish our objectives, we performed the following:

                       •   Interviewed the agencies APCs to discuss their duties with the
                           Purchase Card Program, oversight procedures, and questionable
                           transactions.

                       •   Reviewed OPPM and OCFO procedures and policies, and ongoing
                           efforts designed to minimize and uncover improper purchase card
                           transactions.

                       •   Obtained relevant policy guidance documentation relating to the
                           governance of the use of purchase cards (including the U.S.
                           Government Accountability Office, Department, and OMB).

                       •   Analyzed PCMS transactions and PCMS alert messages.

                       •   Conducted various computer analyses of purchase card transaction
                           activities within the PCMS database using commercially available
                           analytical software to identify potential improper payments.

                       •   Obtained supporting documentation for transactions, and evaluated
                           the information provided for compliance with purchase card
                           requirements.

                       We conducted this audit in accordance with “Government Auditing
                       Standards.”




USDA/OIG-11099-44-FM                                                                    Page 14
Exhibit A – Agency Response to the Draft Report
                                                  Exhibit A – Page 1 of 6




USDA/OIG-11099-44-FM                                           Page 15
Exhibit A – Agency Response to the Draft Report
                                                  Exhibit A – Page 2 of 6




USDA/OIG-11099-44-FM                                           Page 16
Exhibit A – Agency Response to the Draft Report
                                                  Exhibit A – Page 3 of 6




USDA/OIG-11099-44-FM                                           Page 17
Exhibit A – Agency Response to the Draft Report
                                                  Exhibit A – Page 4 of 6




USDA/OIG-11099-44-FM                                           Page 18
Exhibit A – Agency Response to the Draft Report
                                                  Exhibit A – Page 5 of 6




USDA/OIG-11099-44-FM                                           Page 19
Exhibit A – Agency Response to the Draft Report
                                                  Exhibit A – Page 6 of 6




USDA/OIG-11099-44-FM                                           Page 20
